                 U.S. ELECTION ASSISTANCE
                        COMMISSION
                OFFICE OF INSPECTOR GENERAL




                           FINAL REPORT:

                 Administration of Payments Received
                Under the Help America Vote Act by the
                  New York State Board of Elections



                     MAY 1, 2003 THROUGH APRIL 30, 2010




Report No.
E-HP-NY-08-10
March 2011
                         U.S. ELECTION ASSISTANCE COMMISSION

                                 OFFICE OF INSPECTOR GENERAL

                                1201 New York Ave. NW - Suite 300

                                      Washington, DC 20005



                                                                                       March 7, 2011


Memorandum


To:        Thomas Wilkey
           Executive Director

From:	     Curtis W. Crider
           Inspector General

Subject:   Final Audit Report - Administration of Payments Received Under the Help America
           Vote Act by the New York State Board of Elections
           (Assignment Number E-HP-NY-08-10)

        We contracted with the independent certified public accounting firm of Clifton Gunderson
LLP (Clifton Gunderson) to audit the administration of payments received under the Help America
Vote Act (HAVA) by the New York State Board of Elections (BOE). The contract required that the
audit be done in accordance with U.S. generally accepted government auditing standards. Clifton
Gunderson is responsible for the attached auditor’s report and the conclusions expressed therein.

        In its audit of the BOE, Clifton Gunderson concluded that, except for (a) the failure to
provide state matching funds on a timely basis, resulting in a shortfall in the matching requirement
and lost interest earnings on the delayed funding, (b) the lack of time cards and semi-annual
certifications in support of HAVA funded payroll charges, and (c) the failure to maintain adequate
property records to properly account for HAVA funded equipment, our audit concluded that the
BOE generally accounted for and expended HAVA funds in accordance with the HAVA
requirements and complied with the financial management requirements established by the U.S.
Election Assistance Commission. The BOE also complied with section 251 requirements.

        In its December 28, 2010 response to the draft report (Appendix A-1), the BOE agreed with
the report’s finding and recommendations, and agreed to implement appropriate corrective action.

        On January 4, 2011, the U.S. Election Assistance Commission provided us with a written
response to the recommendations (Appendix A-2), which indicated general agreement. We would
appreciate being kept informed of the actions taken on our recommendations as we will track the
status of their implementation. Please respond in writing to the finding and recommendation
included in this report by May 7, 2011. Your response should include information on actions taken
or planned, targeted completion dates, and titles of officials responsible for implementation

       The legislation, as amended, creating the Office of Inspector General (5 U.S.C. § App.3)
requires semiannual reporting to Congress on all audit reports issued, actions taken to implement
audit recommendations, and recommendations that have not been implemented. Therefore, this
report will be included in our next semiannual report to Congress.

       If you have any questions regarding this report, please call me at (202) 566-3125.
                      
                      
     PERFORMANCE AUDIT REPORT


ADMINISTRATION OF PAYMENTS RECEIVED

             UNDER THE

       HELP AMERICA VOTE ACT

                 BY

          NEW YORK STATE


    May 1, 2003 Through April 30, 2010



       UNITED STATES ELECTION

       ASSISTANCE COMMISSION

                      
                      
                      
                      
                      
                      




                     a1 
                                                  TABLE OF CONTENTS




                                                                                                                              PAGE


EXECUTIVE SUMMARY ............................................................................................................ 1

BACKGROUND.......................................................................................................................... 2

AUDIT OBJECTIVES ................................................................................................................. 3

SCOPE AND METHODOLOGY ................................................................................................. 4

AUDIT RESULTS ....................................................................................................................... 4

APPENDICES


Appendix A-1: New York State Board of Elections Response to Draft Report .....................8

Appendix A-2: U. S. Election Assistance Commission Response to Draft Report...............9

Appendix B: Audit Methodology ............................................................................................ 10

Appendix C: Monetary Impact as of April 30, 2010 ............................................................... 12
                        U.S. Election Assistance Commission

        Performance Audit of the Administration of Payments Received Under the

                      Help America Vote Act by New York State


EXECUTIVE SUMMARY

Clifton Gunderson LLP was engaged by the U.S. Election Assistance Commission (EAC or the
Commission) Office of Inspector General to conduct a performance audit of the New York State
Board of Elections (BOE) for the period May 1, 2003 through April 30, 2010 to determine
whether the BOE used payments authorized by Sections 101, 102, and 251 of the Help America
Vote Act of 2002 (HAVA or the Act) in accordance with HAVA and applicable requirements;
accurately and properly accounted for property purchased with HAVA payments and for
program income, and met HAVA requirements for Section 251 funds for an election fund and for
a matching contribution. We did not include a determination of whether the BOE and its
subgrantees met the requirements for maintenance of a base level of state outlays because the
Commission was reviewing its guidance on the applicability of the maintenance of a base level
of state outlays to the BOE’s subgrantees. Since there was no definitive guidance during the
audit period, Maintenance of Effort was not included in the scope of our audit procedures. On
June 28, 2010, the Commission issued its revised guidance on the Maintenance of
Expenditures (MOE) requirement, which includes a provision that the states will have 12 months
from the date of the policy to submit an MOE plan to the EAC.

In addition, the Commission requires states to comply with certain financial management
requirements, specifically:

   •	 Comply with the Uniform Administrative Requirements for Grants and Cooperative
       Agreements with State and Local Governments (also known as the “Common Rule”) as
       published in the Code of Federal Regulations 41 CFR 105-71.

   •	 Expend payments in accordance with cost principles for establishing the allowance or
       disallowance of certain items of cost for federal participation issued by the Office of
       Management and Budget (OMB) in Circular A-87, Cost Principles for State, Local, and
       Indian Tribal Governments.

   •	 Submit detailed annual financial reports on the use of Title I and Title II payments.

   •	 We conducted this performance audit in accordance with Generally Accepted
      Government Auditing Standards. Those standards require that we plan and perform the
      audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
      findings and conclusions based on our audit objectives. We believe that the evidence
      obtained provides a reasonable basis for our findings and conclusions based on the
      audit objectives. Because of inherent limitations, a study and evaluation made for the
      limited purposes of our review would not necessarily disclose all weaknesses in
      administering HAVA payments.

Except for (a) the failure to provide state matching funds on a timely basis, resulting in a
shortfall in the matching requirement and lost interest earnings on the delayed funding, (b) the
lack of time cards and semi-annual certifications in support of HAVA funded payroll charges,
and (c) the failure to maintain adequate property records to properly account for HAVA funded



                                              1
equipment, as discussed below, our audit concluded that the BOE generally accounted for and
expended HAVA funds in accordance with the requirements mentioned above for the period
from May 1, 2003 through April 30, 2010. The exceptions needing BOE’s management
attention are summarized below:

   •	 The state was required to deposit a total of $9,052,509 in matching funds into the
      election fund when it received its Section 251 requirements payments. Instead of
      depositing cash into the fund, the state required counties to pay for 5 percent of the cost
      of voting equipment and considered these payments as state matching funds. In
      addition, New York counted state funded election expenditures as part of its match
      requirement. As of April 30, 2010, the state and counties had expended only $8,462,457
      towards the state match leaving a shortfall of $590,052. In addition, because the funds
      were spent after the state received its requirements payments, there was lost interest of
      $1,017,958, which would have accrued had the state made its matching payments
      timely.
   •	 From May 4, 2006 to December 26, 2007, the BOE charged the HAVA fund for payroll
      expenses totaling $495,602. These charges were not supported by semi-annual
      certifications or other documentation, such as time sheets, that showed that employees
      worked on HAVA related activities.
   •	 Inventory listings of HAVA-funded State Voter Registration System equipment did not
      conform to the requirements of 41 C.F.R. 105-71.132 (d) (1), (the Common Rule). The
      listings did not include required elements such as source of the property, who holds title,
      the percentage of federal participation, and condition.

In an email response to the draft audit report dated December 28, 2010, BOE officials stated that
they took no exception to the findings and would work with the EAC to ensure that the
appropriate corrective actions are implemented. The BOE’s official response is included as
Appendix A-1.

The draft report, including the BOE responses, was provided to the Executive Director of the
EAC for review and comment. The EAC responded on January 4, 2011, and generally agreed
with the report’s review and recommendations. The response indicated that the EAC would
work with the BOE to ensure appropriate corrective action. The EAC’s complete response is
included as Appendix A-2.

BACKGROUND

HAVA created the Commission to assist states and insular areas with the improvement of the
administration of federal elections and to provide funds to states to help implement these
improvements. HAVA authorizes payments to states under Titles I and II, as follows:

   •	 Title I, Section 101 payments are for activities such as complying with Title III of HAVA for
       uniform and nondiscriminatory election technology and administration requirements,
       improving the administration of elections for federal office, educating voters, training
       election officials and poll workers, and developing a state plan for requirements
       payments.

   •	 Title I, Section 102 payments are available only for the replacement of punch card and
       lever action voting systems.




                                              2
    •	 Title II, Section 251 requirements payments are for complying with Title III requirements
        for voting system equipment; and for addressing provisional voting, voting information,
        statewide voter registration lists, and voters who register by mail.

Title II also requires that states must:

    •	 Have appropriated funds “equal to 5 percent of the total amount to be spent for such
        activities [activities for which requirements payments are made].” [Section 253(b) (5)].

    •	 “Maintain the expenditures of the state for activities funded by the [requirements] payment
        at a level that is not less than the level of such expenditures maintained by the state for
        the fiscal year ending prior to November 2000.” [Section 254 (a) (7)].

    •	 Establish an election fund for amounts appropriated by the state “for carrying out the
        activities for which the requirements payment is made,” for the federal requirements
        payments received, for “such other amounts as may be appropriated under law,” and for
        “interest earned on deposits of the fund.” [Section 254 (b)(1)].

AUDIT OBJECTIVES

The objectives of our audit were to determine whether the BOE:

    1.		 Used payments authorized by Sections 101, 102, and 251 of HAVA in accordance with
         HAVA and applicable requirements;

    2.		 Accurately and properly accounted for property purchased with HAVA payments and for
         program income;

    3.		 Met HAVA requirements for Section 251 funds for an election fund and for a matching
         contribution. We did not determine whether the BOE met the requirement for
         maintenance of a base level of state outlays, because the Commission was reviewing its
         guidance on the applicability of the maintenance of a base level of state outlays to
         subgrantees of the BOE. Since there was no definitive guidance during the audit period,
         Maintenance of Effort was not included in the scope of our audit procedures. On June
         28, 2010, the Commission issued its revised guidance on the Maintenance of
         Expenditures (MOE) requirement, which includes a provision that the states will have 12
         months from the date of the policy to submit a MOE plan to the EAC
In addition to accounting for HAVA payments, the Act requires states to maintain records that
are consistent with sound accounting principles that fully disclose the amount and disposition of
the payments, that identify the project costs financed with the payments and other sources, and
that will facilitate an effective audit. The Commission requires states receiving HAVA funds to
comply with certain financial management requirements, specifically:

    1.		 Comply with the Uniform Administrative Requirements for Grants and Cooperative
         Agreements with State and Local Governments (also known as the “Common Rule”) as
         published in the Code of Federal Regulations at 41 CFR 105-71.


    2.		 Expend payments in accordance with cost principles for establishing the allowance or
         disallowance of certain items of cost for federal participation issued by the OMB.


                                              3
     3. Submit detailed annual financial reports on the use of Title I and Title II payments.1


SCOPE AND METHODOLOGY

We audited the HAVA funds received and disbursed by the BOE from May 1, 2003 through April
30, 2010 (84-month period) as shown in the following table:
                                    FUNDS RECEIVED                                                                             
 TYPE OF    EAC    PROGRAM    STATE    INTEREST    TOTAL    FUNDS     DATA
 
PAYMENT  PAYMENT  INCOME  MATCH         EARNED    AVAILABLE  DISBURSED  AS OF
 
                                                                                                                                
Section 101       $ 16,494,325        $         0    $             0       $  3,046,308     
                                                                                          $  19,540,633   $  13,335,690     
                                                                                                                           4/30/2010 
Section 102       49,603,917                    0                  0          9,138,649      58,742,566      31,295,705    4/30/2010
Section 251       171,997,692                   0                  0  2     23,588,772   195,586,464         96,091,531    4/30/2010
                                                                                                                                
   Total          $238,095,934        $         0                $0        $35,773,729    $273,869,663    $140,722,926    4/30/2010 

Our audit methodology is set forth in Appendix B.

AUDIT RESULTS

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on the audit objectives. Because of inherent
limitations, a study and evaluation made for the limited purposes of our review would not
necessarily disclose all weaknesses in administering HAVA payments.

Except for (a) the failure to provide state matching funds on a timely basis, resulting in a
shortfall in the matching requirement and lost earnings on the delayed funding, (b) the lack of
time cards and semi-annual certifications in support of HAVA funded payroll charges, and (c)
the failure to maintain adequate property records to properly account for HAVA funded
equipment, as discussed below, our audit concluded that the BOE generally accounted for and
expended HAVA funds in accordance with the requirements mentioned above for the period
from May 1, 2003 through April 30, 2010. The determination of whether the BOE and its
subgrantees met the requirement for maintenance of a base level of state outlays was not
included in our scope of work as explained above. In an email response to the draft audit report
dated December 28, 2010, BOE officials stated that they took no exception to the findings and
would work with the EAC to ensure that the appropriate corrective actions are implemented. The


1  EAC requires states to submit annual reports on the expenditure of HAVA Sections 101, 102, and 251 funds.
Through December 31, 2008, for Sections 101 and 102, reports were due on February 28 for the activities of the
previous calendar year, and, for Section 251, reports were due by March 30 for the activities of the previous fiscal
year ending on September 30. Beginning in calendar year 2009, all reports will be effective as of September 30,
20XX for the fiscal year ended that date and will be due by December 31, 20XX.

2 New York did not deposit its state match into the election fund at the time it received its requirements payments.
	
Instead, it considered counties’ payments of 5 percent of the cost of voting equipment as meeting the state match.
	



                                                                  4
BOE’s official response is included as Appendix A-1.

I.   HAVA Section 251 State Match

The BOE established an election fund to hold HAVA funds in accordance with the requirements
of HAVA Section 254. The HAVA also requires that the election fund hold the five percent state
matching funds that enabled New York to qualify for federal HAVA Section 251 funds.
Furthermore interest earned from the investment of the money in the election fund must also be
deposited into the election fund. The timely deposit of the state match and of monthly interest
earnings increases the election fund balance upon which each subsequent month’s interest
earnings is based, resulting in a compounding effect that adds additional funds to the program.

BOE determined that the state had a requirement to provide matching funds totaling $9,052,509
to be eligible to receive Section 251 funds. However, the state did not deposit the matching
funds into its election fund. The matching funds were appropriated by the state, but remained in
the general fund until expended. The state partially met its match by requiring counties to
contribute 5 percent of the cost of voting equipment purchased by the state on behalf of the
counties as well as through state funded HAVA related expenditures. New York’s Office of
General Services (OGS), the office that tracks HAVA financial activity, calculated that, as of
April 30, 2010, the state and its counties had only expended $8,462,457 against the state
matching requirement, resulting in a shortfall of $590,052. Further, the state did not transfer any
interest earned on the balances in the general funds into the HAVA election fund as required.
The state estimated that the lost interest was $1,017,958 as of April 30, 2010.

HAVA Sec. 253(b)(5) states that:

       as a condition for receipt of funds (Requirements Payments), the state has appropriated
       funds for carrying out the activities for which the requirements payment is made in an
       amount equal to 5 percent of the total amount to be spent for such activities (taking into
       account the requirements payment and the amount spent by the state) and, in the case of
       a state that uses a requirements payment as a reimbursement under section 251(c)(2),
       an additional amount equal to the amount of such reimbursement.

HAVA Section 254(b)(1) of the HAVA requires that the following monies be deposited into its
election fund:

       A.		   Amounts appropriated or otherwise made available by the state for carrying out
              the activities for which the requirements payment is made to the state under
              this part (the state five percent match of HAVA Section 251 funds).

       B.		   The requirements payment made to the state under this part.

       C.		 Such other amounts as may be appropriated under law.

       D.		 Interest earned on deposits of the fund.

BOE officials agreed that the state had not deposited or expended its matching funds
timely and that as a result there is a shortfall in the state match and that interest that would
have accrued on that match has been lost. They also stated that they had notified EAC of
the state’s plan to meet its matching requirement but had not been advised that this
approach was inappropriate.



                                                 5
Recommendations:

We recommend that the BOE:

1.		 Deposit into the election fund the state match shortfall of $590,052, or such other amount as
     determined at the date of the transfer.

2.		 Transfer the lost interest earnings of $1,017,958 into the election fund along with any
     additional interest that may accrue until the date of the transfer.

BOE’s Response:

BOE said that they take no exception to this finding and will work with EAC to ensure that
appropriate corrective action is taken.


II.	 Personnel Certifications

The BOE used HAVA funds to pay salaries for employees during the periods from May 4, 2006
through December 26, 2007 and July 23, 2009 through April 30, 2010. Between May 4, 2006
and December 26, 2007, the BOE charged the HAVA fund $495,602 for the full salaries for
personnel who worked on HAVA activities. These charges were not supported by semi-annual
certifications that the employees worked only on HAVA-related activities or by other
documentation such as timecards that showed that the employees worked on HAVA related
activities. Beginning in 2009, BOE required HAVA funded employees to prepare timesheets
that included information supporting that the staff worked solely on HAVA projects. BOE
officials said that they were not aware of the requirement to prepare semi-annual certifications.
After we advised BOE of this requirement they prepared semi-annual certifications dated June
10 and 11, 2010, for the employees who were paid with HAVA funds between May 4, 2006 and
December 26, 2007.

OMB Circular A-87, in Attachment B Section 8(h) (3) requires that:

   (3) Where employees are expected to work solely on a single Federal award or cost
   objective, charges for their salaries and wages will be supported by periodic certifications
   that the employees worked solely on that program for the period covered by the certification.
   These certifications will be prepared at least semi-annually and will be signed by the
   employee or supervisory official having firsthand knowledge of the work performed by the
   employee.

Recommendation:

3.		 We recommend that the EAC resolve with the BOE the appropriate corrective action
     regarding the untimely completion of the semi-annual certifications and the lack of other
     documentation, such as time cards for the 2006 to 2007 period personnel costs were paid
     with HAVA funds.




                                              6
BOE’s Response:

BOE said that they take no exception to this finding and will work with EAC to ensure that
appropriate corrective action is taken.

III.	 Property Records

The inventory records for the BOE HAVA funded State voter Registration System (SVRS)
equipment did not contain all of the elements required by the Common Rule as explained below.
The records did not list the source of the property, who holds the title, the percentage of federal
participation, and the condition.

The Uniform Administrative Requirements for Grants and Cooperative Agreements with State
and Local Governments 41 CFR § 105-71.132(d)(1) (the “Common Rule”) states:

   that property records must be maintained that include a description of the property, serial
   number or other identification number, the source of property, who holds the title, the
   acquisition date, and costs of the property, percentage of Federal participation in the cost of
   the property, the locations, use and condition of the property, and any ultimate disposition
   data including the date of disposal and sale price of the property.

BOE election officials informed us that they were not aware of the detailed recordkeeping
requirements of the Common Rule.

Recommendation:

4.		 We recommend that the BOE ensure that the property management records for HAVA
     funded equipment list the source of the property, who holds the title, the percentage of
     federal participation, and the condition.

BOE’s Response:

BOE said that they take no exception to this finding and will work with EAC to ensure that
appropriate corrective action is taken.

                               ****************************************

We provided a draft of our report to the appropriate individuals of the BOE and the Commission.
We considered any comments received prior to finalizing this report.

The draft report, including the BOE response, was provided to the Executive Director of the
EAC for review and comment. The EAC responded on January 4, 2011, and generally agreed
with the report’s review and recommendations. The response indicated that the EAC would
work with the BOE to ensure appropriate corrective action. The EAC’s complete response is
included as Appendix A-2

CG performed its work between May 10, 2010 and May 28, 2010.

a1 
Calverton, Maryland
June 29, 2010



                                                 7
                                                                           Appendix A-1


             New York State Board of Elections Email Response to Draft Report


The New York State Board of Elections has reviewed the Notification of Findings and
Recommendations that were prepared by Clifton Gunderson for its audit of the State of New
York's use of HAVA funds. We take no exception to the findings and will work with you to
ensure that the appropriate corrective actions are implemented.

Thank you,



Thomas A. Jarose
Associate Personnel Administrator
New York State Board of Elections
40 Steuben Street
Albany, New York 12207
(518)474-6336
(518)474-1008 (fax)
tjarose@elections.state.ny.us




                                           8
                                                                         Appendix A-2




                    EAC RESPONSE TO THE DRAFT AUDIT:
                    OIG Performance Audit Report on the Administration of
                    Payments Received Under the Help America Vote Act by the
                    State of New York, for the Period May 1,2003 Through April
                    30,2010.

January 4, 2011 


MEMORANDUM 


To:           Curtis Crider
              Inspector General             \>~

From:         Mark A. Robbins     \-\~ \\ .
              General Counsel     .

Subject: 	   Draft Performance Audit Report - "Administration of Payments
             Received Under the Help America Vote Act by the State of New
             York".

Thank you for this opportunity to review and respond to the draft audit report for
New York.

The Election Assistance Commission (EAC) generally concurs with the results of
the review and recommendations. The EAC will work with the New York State
Board of Elections to ensure appropriate corrective action .




                                       9
                                                                                       Appendix B
                                    AUDIT METHODOLOGY


Our audit methodology included:

•	 Assessing audit risk and significance within the context of the audit objectives.

•	 Obtaining an understanding of internal control that is significant to the administration of the
   HAVA funds.

•	 Understanding relevant information systems controls as applicable.

•	 Identifying sources of evidence and the amount and type of evidence required.

•	 Determining whether other auditors have conducted, or are conducting, audits of the
   program that could be relevant to the audit objectives.

To implement our audit methodology, below are some of the audit procedures we performed:

•	 Interviewed appropriate BOE employees about the organization and operations of the HAVA
   program.

•	 Reviewed prior single audit report and other reviews related to the state’s financial
   management systems and the HAVA program for the last 2 years.

•	 Reviewed policies, procedures and regulations for the BOE’s management and accounting
   systems as they relate to the administration of HAVA programs.

•	 Analyzed the inventory lists of equipment purchased with HAVA funds.

•	 Tested major purchases and supporting documentation.

•	 Tested randomly sampled payments made with the HAVA funds.

•	 Verified support for reimbursements to local governments (counties, cities, and
   municipalities).

•	 Reviewed certain state laws that impacted the election fund.

•	 Examined appropriations and expenditure reports for state funds used to meet the five
   percent matching requirement for section 251 requirements payments.

•	 Evaluated compliance with the requirements for accumulating financial information reported
   to the Commission on the Financial Status Reports, Forms SF-269 and 425, accounting for
   property, purchasing HAVA related goods and services, and accounting for salaries.

•	 Verified the establishment and maintenance of an election fund.




                                                10
•	 Conducted site visits of selected counties/towns to perform the following:

     �   Observe equipment purchased with HAVA funds for proper accounting and
         safeguarding
     �   Ensure compliance with HAVA Act.




                                               11
	
                                                                            Appendix C



           MONETARY IMPACT AS OF APRIL 30, 2010 



                                            Questioned         Additional Funds for
             Descrie.tion                     Costs                  Program
State match shortfall                                  $0                 $ 590,052

Lost interest on State match                             0                 1,017,958

Payroll charges                                  495,602                           0

Totals                                          $495,602                  $1,608,010


  Note:   There are also additional funds for the program from interest earnings on
          undisbursed HAVA funds held by the counties; however, the total amount due has
          not been determined.




                                         12 

                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1201 New York Ave. NW - Suite 300
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: 	U.S. Election Assistance Commission
Waste and Abuse                 Office of Inspector General
Involving the U.S.              1201 New York Ave. NW - Suite 300
Election Assistance             Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
